                     CLOSEOUT FOR CASE A-01100036
On 31 October 2001, we received an allegation of misconduct in science fiom the
complainant.' He alleged that an NSF proposal2 he received for review contained ideas
and language that were plagiarized fiom one of his two earlier NSF proposals (proposals
1 or 2)3 or from his Department of Energy DOE)^ proposal. He said that one of the PIS
on the NSF proposal (subject 1,2 or 3),5 all of whom were fiom the same institution (the
University), must have reviewed one of these proposals either as a reviewer or a panelist.
He added that if no faculty member from the University reviewed any of these proposals,
then the matter would be the consequence of researchers working on the same topics and,
as a result, developing similar ideas.
A review of NSF's computerized proposal and award database showed that none of the
subjects either reviewed or served on a panel for either of the complainant's proposals.
We requested and received a copy of the DOEproposal and review information fiom the
misconduct official at DOE. We determined that none of the subjects reviewed or
participated in the review of the complainant's DOEproposal. Because the Cover Sheet
for the complainant's NSF proposal 1 indicated that he submitted a similar proposal to
Office of Naval Research (oNR),~ we requested and received information about the
review of this proposal from the misconduct official at ONR. We learned that the
complainant's ONR proposal was not sent out for review or reviewed by a panel.
We determined that none of the subjects received a copy of any of the complainant's
similar proposals submitted to NSF, DOE, or ONR through the review processes. We
conclude there is no substance to the allegation.
This inquiry is closed and no further action will be taken.
cc: Investigations, IG

                                      is a faculty member in h_te-




                                        Page 1 of 1                             A 01-36
